      Department of Homeland Security





                 FEMA Public Assistance Grant 

           Funds Awarded to Napa County, California 





DS-12-04                                          March 2012

                                                                                         Office ofinspector General

                                                                                         U.S. Department of Homeland
                                                                                         Security
                                                                                         Washington, DC 20528




                                                                                          Homeland
                                                                                          Security
                                                    MAR       8 ZIJI2

MEMORANDUM FOR:



FROM:
                                           Assistant Inspector General
                                           Office of Emergency Management Oversight

SUBJECT:                                  FElvlA Public Assistance Grant Funds Awarded to
                                           Napa County, Cal{(ornia
                                          FEMA Disaster Number 1628-DR-CA
                                          Audit Report Number DS-12-04

We audited Public Assistance (PA) grant funds awarded to Napa County, California (County),
Public Assistance Identification Number 055~99055~00. Our audit objective was to detennine
whether the County accounted for and expended Federal Emergency Management Agency
(FEMA) grant funds according to federal regulations and FEMA guidelines.

The County received a PA award of $7 million from the California Emergency Management
Agency (Cal EMA) 1 a FEMA grantee, for debris removal, emergency protective measures, and
permanent repairs to facilities damaged as a result of flooding that occurred from December 17,
2005, through January 3, 2006, The award provided 75% FEMA funding for 15 large and 102
small projects? The audit covered the period from December 17,2005, to February 9, 2012. We
audited six large projects totaling $4.3 million, or 61% of the total award. We also perfonned a
limited review of one additional large project to identify unused funds that should be put to better
use (sec Exhibit, Schedule of Projects Audited). As of February 9, 2012, the County had not
submitted a final claim for this subgrant award.

We conducted this perfonnancc audit pursuant to the In.~pect()r General Act 0/1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perfonn the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based


1   At the time of the disaster, the grantee's name was the Governor's Office of Emergency Services, which became
rart of Cal EMA on January 1,2009.
    Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
upon our audit objective. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We discussed issues related to this audit with FEMA, Cal EMA, and County officials; reviewed
judgmentally selected samples of project costs (generally based on dollar value); and performed
other procedures considered necessary to accomplish our objective. We did not assess the
adequacy of the County’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. We did, however, gain an understanding of the
County’s method of accounting for disaster-related costs and its procurement policies and
procedures.


                                    RESULTS OF AUDIT

Of the $4.3 million we reviewed, County officials generally expended and accounted for public
assistance funds according to federal grant regulations and FEMA guidelines. However, we
identified $881,471of unused federal funds, $178,681 in excessive and unreasonable project
management charges, and $21,356 in ineligible indirect costs.


          Summary of Costs Recommended for Deobligation and Disallowance
      Finding                     Subject                       Net Costs
         A                    Funds Not Used                         $881,471
         B               Project Management Costs                     178,681
         C                     Indirect Costs                          21,356
      TOTAL                                                        $1,081,508


Finding A: Funds Not Used

County officials stated that they would not pursue further reimbursement for Projects 2891 and
3211, totaling $881,471, because Project 2891 was completed for $748,280 under the approved
amount and Project 3211, for $133,191, was abandoned. Therefore, FEMA should deobligate
$881,471 of unused federal funds for Projects 2891 and 3211 and put those funds to better use.
County officials agreed with this finding.


Finding B: Excessive and Unreasonable Project Management

County officials charged $178,681 in excessive and unreasonable project management costs for
Project 3538. FEMA officials estimated, and approved as reasonable, project management costs
at 3% of total construction cost. However, the County charged more than 16% of construction
costs for these services.

Federal rules and FEMA guidelines stipulate that to be reasonable, a cost:

   •	 In its nature and amount does not exceed that which would be incurred by a prudent
      person under the circumstances prevailing at the time the decision was made to incur the
                                              2

        cost. (Office of Management and Budget Circular A-87, Revised, Appendix A, section
        C.2)

    •	 Is both fair and equitable for the type of work being performed. (FEMA 322, October
       1999, p. 34)

We determined that the County did not comply with these criteria because project management
costs charged to Project 3538 exceeded the FEMA approved amounts. Because of changes in the
scope of work not included in FEMA’s original project estimate, construction costs increased
from an estimate of $169,400 to the actual final amount of $1,337,768. 3 The additional
construction costs increased project management costs from an estimate of $5,082 to $40,133
(3% of $1,337,768). However, the County charged $218,814 in project management costs.



                                Project Management Costs
           $250,000
                                                                                    $218,814
           $200,000

           $150,000

           $100,000

            $50,000                                         $40,133
                                 $5,082
                 $-
                          3% of original FEMA         3% of actual cost       16.4% of actual costs
                               estimate
                                            Project Management Computations




County records did not include documented evidence establishing the need for additional project
management costs in excess of FEMA approved amounts. Therefore, we question $178,681
($218,814 less $40,133) as excessive and unreasonable. County officials disagreed with this
finding, stating that the project management charges were prudent, reasonable, and necessary
based on the nature of the work and FEMA’s requirements. They stated that, at project close­
out, the County would provide FEMA with the necessary justification in support of the costs.


Finding C: Indirect Costs

The County charged indirect costs to Projects 2758, 2890, 2891, 3223, and 3538. Such costs are
covered by FEMA’s statutory administrative allowance.




3
  The cost increase is due to overruns of $588,717 that were within FEMA’s approved scope of work, and $579,651
in emergency work.
                                                       3

According to 44 CFR 206.228(a)(2)(ii) and (b)(2), a subgrantee's indirect costs are not separately
eligible for reimbursement because FEMA's statutory administrative allowance covers indirect
costs.

County officials applied an indirect rate between 12% and 17% to labor costs for expenses
relating to the County’s Departmental General Services and supplies. The table below identifies
the project number, the force account labor costs charged to the projects, and the ineligible
indirect costs.

                         Project       Force Account           Ineligible Indirect
                           No.             Labor                      Cost
                          2758            $ 13,368                    $ 1,756
                          2890               9,179                      1,137
                          2891              19,303                      2,374
                          3223              26,198                      4,542
                          3538              74,094                     11,547
                          Total           $142,142                    $21,356

Because overhead costs are indirect in nature, they cannot be charged separately as direct project
costs. Therefore, we question $21,356 as ineligible charges to Projects 2758, 2890, 2891, 3223,
and 3538. County officials stated they will not claim costs recognized as ineligible when they
submit final project claims for close-out. 4


                                        RECOMMENDATIONS

We recommend that the FEMA Region IX Administrator, in coordination with Cal EMA:

Recommendation #1: Deobligate $881,471 (federal share $661,103) and put those federal
funds to better use: $748,280 for Project 2891 and $133,191 for Project 3211 (finding A).

Recommendation #2: Disallow $178,681 (federal share $134,011) in excessive and
unreasonable costs for construction management for Project 3538 (finding B).

Recommendation #3: Disallow $21,356 (federal share $16,017) in ineligible indirect costs
charged to Projects 2758, 2890, 2891, 3223, and 3538 (finding C).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed these results with County officials during our audit and have included their
comments in this report, as appropriate. We also provided written summaries of our findings and
recommendations in advance to FEMA on February 6, 2012, and Cal EMA and the County on
January 30, 2012. We discussed these findings and recommendations at exit conferences held
with Cal EMA and County officials on February 9, 2012. County officials agreed with finding A

4
 Cal EMA has prepared a Final Inspection Report (FIR) for Project 3538. The FIR indicates that claimed project
costs are net of the $11,547 in ineligible indirect costs identified in this finding.
                                                       4

and partially agreed with finding C; they disagreed with finding B. FEMA and Cal EMA
officials withheld further comment until after we issue our final report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendations. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were Humberto Melara,
Louis Ochoa, Paul Sibal, Renee Gradin, and Elizabeth Finn.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Audit Liaison, FEMA Region IX
       Administrator, FEMA
       Audit Liaison, FEMA (Job Code G-11-039)
       Audit Liaison, DHS




                                               5

                                                                                                           EXHIBIT



                                       Schedule of Projects Audited 

                                   December 17, 2005, to February 9, 2012

                                         Napa County, California

                                   FEMA Disaster Number 1628-DR-CA





                                                           Costs Recommended for
                                                         Deobligation and Disallowance                       Total
                  Project         Project
Project                                                                                                     Findings
                  Award            Cost           Funds Not         Excessive
Number                                                                                   Ineligible          (A-C)
                  Amount          Audited            Used            Project
                                                                                          Indirect
                                                   (Finding        Management
                                                                                        (Finding C)
                                                      A)           (Finding B)
    2758          $722,423    $707,500                                                          $1,756          $1,756
    2890 5          956,373    123,961                                                           1,137           1,137
    2891          1,425,995    677,715               $748,280                                    2,374         750,654
    3211            133,191          0                133,191                                                  133,191
    3223            341,403    748,780                                                           4,542           4,542
    3229            224,509    195,921
    3538            344,548 1,807,856 6                               $178,681                 11,547    190,228
    Total        $4,148,442 $4,261,733               $881,471         $178,681                $21,356 $1,081,508




5
    Project 2890 is still in progress; the amount of costs represent the costs to date provided by the County.

6
    Project 3538 – Project costs audited represent total charges the County accumulated at the time of audit fieldwork.

                                                            6

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
